WAIVER

Supreme Court, U.S.
FILED

DEC 15 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-750

Timothy P. Murphy

Susan Stacy, Circuit Court Judge

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
I am not presently a memb9-- 7 the Bar of this Court. Should a response be requested, the response
will be filed by a Bar mem
Signature
Date.

12/14/2020

(Type or print) Name

Bilal Ahmed Fa qui
# Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Office of the Florida Attorney General

Address

PL-01, The Capitol

City & State
Phone

Tallahassee, FL

(850) 414-3757

Zip
Email

32399-1050

Bilal.Faruqui@myfloridalegal.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR. TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS 11EQUI

FlicCEIVED

CC: Timothy P. Murphy

DEC 3 0 2020
I

ti

OFFICE OF THE CLERK
SUPREME COURT, US.

